-DQXDU\  


7KH +RQRUDEOH 0DUVKD 3\OH 0DUWLQ
&KDLUPDQ DQG &KLHI ([HFXWLYH 2IILFHU
)DUP &UHGLW $GPLQLVWUDWLRQ
0F/HDQ 9LUJLQLD

'HDU 0V 0DUWLQ

:H KDYH FRPSOHWHG RXU HYDOXDWLRQ RI WKH )DUP &UHGLW $GPLQLVWUDWLRQ¶V )&$ RU $JHQF\
6SHFLDOL]DWLRQ&HUWLILFDWLRQ 3URJUDPV 2XU REMHFWLYH ZDV WR HYDOXDWH WKH $JHQF\¶V SURJUDPV IRU
GHYHORSLQJ HIIHFWLYH DQG FUHGLEOH VXEMHFW PDWWHU H[SHUWV

7KH $JHQF\¶V SURJUDPV IRU GHYHORSLQJ HIIHFWLYH DQG FUHGLEOH VXEMHFW PDWWHU H[SHUWV KDYH
JHQHUDOO\ EHHQ VXFFHVVIXO +RZHYHU ZH LGHQWLILHG RSSRUWXQLWLHV WR HQKDQFH WKH $JHQF\¶V
SURJUDPV E\  FUHDWLQJ URWDWLRQDO DVVLJQPHQWV WR EURDGHQ WKH H[SHULHQFHV RI &DSLWDO 0DUNHWV
6SHFLDOLVWV DQG ,QIRUPDWLRQ 6\VWHPV ([DPLQHUV  HVWDEOLVKLQJ VHUYLFH FRPPLWPHQWV DV D
FRQGLWLRQ RI SDUWLFLSDWLRQ  SHUIRUPLQJ FRVW EHQHILW DQDO\VHV WR VXSSRUW PDLQWDLQLQJ WKHVH
VXEMHFW PDWWHU H[SHUWV LQKRXVH DQG  LPSURYLQJ WKH $JHQF\¶V WUDLQLQJ GDWDEDVH VR WKDW
PDQDJHPHQW LQIRUPDWLRQ LV FRPSOHWH DQG UHOLDEOH

7KLV DXGLW ZDV FRQGXFWHG LQ DFFRUGDQFH ZLWK *RYHUQPHQW $XGLWLQJ 6WDQGDUGV LVVXHG E\ WKH
&RPSWUROOHU *HQHUDO IRU DXGLWV RI )HGHUDO RUJDQL]DWLRQV SURJUDPV DFWLYLWLHV DQG IXQFWLRQV
)LHOGZRUN ZDV FRQGXFWHG IURP -XQH  WR $XJXVW  DW )&$ KHDGTXDUWHUV LQ 0F/HDQ
9LUJLQLD $Q HQWUDQFH FRQIHUHQFH ZDV KHOG RQ -XQH   $ GUDIW RI WKLV UHSRUW ZDV SURYLGHG
WR PDQDJHPHQW RQ 2FWREHU   DQG WKHLU ZULWWHQ UHVSRQVH LV LQFOXGHG
                             Ã




5HVSHFWIXOO\



(OGRQ : 6WRHKU
,QVSHFWRU *HQHUDO
                                   )&$ 2IILFH RI ,QVSHFWRU *HQHUDO
                           $XGLW $ 6SHFLDOL]DWLRQ&HUWLILFDWLRQ 3URJUDPV



%$&.*5281'

7KH )DUP &UHGLW $GPLQLVWUDWLRQ )&$ RU $JHQF\ LV DQ LQGHSHQGHQW )HGHUDO ILQDQFLDO UHJXODWRU\
DJHQF\ RI WKH 8QLWHG 6WDWHV JRYHUQPHQW ZLWK UHJXODWRU\ H[DPLQDWLRQ DQG VXSHUYLVRU\
UHVSRQVLELOLWLHV IRU WKH )DUP &UHGLW 6\VWHP 6\VWHP EDQNV DVVRFLDWLRQV DQG UHODWHG LQVWLWXWLRQV
WKDW DUH FKDUWHUHG XQGHU WKH )DUP &UHGLW $FW RI  DV DPHQGHG

7KH )&$ HPSOR\V LQGLYLGXDOV ZLWK D YDULHW\ RI VNLOOV WR SHUIRUP WKH IXQFWLRQV UHTXLUHG WR IXOILOO
LWV PLVVLRQ ,Q PRVW FDVHV HPSOR\HHV DUH WUDLQHG DV JHQHUDOLVWV ZLWKLQ WKHLU RFFXSDWLRQDO VHULHV
+RZHYHU WKH $JHQF\ KDV LGHQWLILHG D QXPEHU RI IXQFWLRQDO DUHDV LQ ZKLFK LW EHOLHYHV WKDW VXEMHFW
PDWWHU VSHFLDOLVWV DUH QHHGHG WR VXSSOHPHQW WKH JHQHUDOLVWV 7KH $JHQF\¶V XVXDO FRXUVH RI DFWLRQ
KDV EHHQ WR SURYLGH VSHFLDOL]HG WUDLQLQJ WR JHQHUDOLVWV WR GHYHORS WKHLU H[SHUWLVH LQ WKHVH VHOHFW
DUHDV ,Q PDQ\ LQVWDQFHV WKLV WUDLQLQJ REMHFWLYH KDV LQFOXGHG SURIHVVLRQDO FHUWLILFDWLRQ WR
LQFUHDVH WKH FUHGLELOLW\ RI WKRVH LQGLYLGXDOV ,QWHUQDO DQG H[WHUQDO SURJUDPV KDYH EHHQ XVHG IRU
WKH WUDLQLQJ WR GHYHORS YDULRXV VXEMHFW PDWWHU H[SHUWLVH

7KH YLVLRQ RI WKH )&$ %RDUG LV WKDW WKH $JHQF\ ZLOO EH YLHZHG DV WKH SUHPLHU UHJXODWRU RI
ILQDQFLDO LQVWLWXWLRQV 7KH TXDOLW\ DQG FUHGLELOLW\ RI )&$ VWDII PHPEHUV LV HVVHQWLDO WR IXOILOOLQJ
WKDW YLVLRQ


2%-(&7,9(6 6&23( $1' 0(7+2'2/2*<

7KH REMHFWLYH RI WKLV DXGLW ZDV WR HYDOXDWH WKH $JHQF\¶V SURJUDPV IRU GHYHORSLQJ HIIHFWLYH DQG
FUHGLEOH VXEMHFW PDWWHU H[SHUWV 2XU UHYLHZ LGHQWLILHG DOO VSHFLDOL]DWLRQFHUWLILFDWLRQ SURJUDPV WKDW
H[LVW ZLWKLQ WKH $JHQF\ WKURXJK D UHYLHZ RI $JHQF\ GRFXPHQWV DQG LQWHUYLHZV ZLWK VWDII :H DOVR
GRFXPHQWHG WKH SURFHGXUHV IRU VHOHFWLQJ LQGLYLGXDOV WR SDUWLFLSDWH LQ WKHVH SURJUDPV DV ZHOO DV
VSHFLILF SURJUDP RSHUDWLQJ SDUDPHWHUV )XUWKHU ZH GRFXPHQWHG WKH FRVWV DVVRFLDWHG ZLWK VWDII
GHYHORSPHQW DQG LGHQWLILHG DQ\ VHUYLFH FRPPLWPHQWV UHTXLUHG IURP SDUWLFLSDQWV WR SURWHFW WKH
$JHQF\¶V LQYHVWPHQW )LQDOO\ ZH VXUYH\HG 6\VWHP RIILFLDOV WR REWDLQ WKHLU YLHZV RQ WKH FUHGLELOLW\
RI )&$ VXEMHFW PDWWHU VSHFLDOLVWV


),1',1*6 &21&/86,216 $1' 5(&200(1'$7,216

6\VWHP RIILFLDOV EHOLHYH )&$¶V ,QIRUPDWLRQ 6\VWHPV ,6 ([DPLQHUV DQG &DSLWDO 0DUNHWV
6SHFLDOLVWV &06 ZRXOG EH PRUH HIIHFWLYH LI WKH\ KDG PRUH SUDFWLFDO H[SHULHQFH LQ DFWXDO
RSHUDWLRQV

:H LQWHUYLHZHG WKH &KLHI )LQDQFLDO 2IILFHU DQG &KLHI ,QIRUPDWLRQ 2IILFHU DW HDFK RI WKH HLJKW
6\VWHP EDQNV 7KHLU DJJUHJDWH YLHZ LV WKDW WKH $JHQF\¶V ,6 DQG &06 VXEMHFW PDWWHU VSHFLDOLVWV
DUH DYHUDJH EXW JHQHUDOO\ LPSURYLQJ :H DVNHG WKHVH RIILFLDOV WR UDWH WKH WZR SURJUDPV RQ D
VFDOH RI  WR   EHLQJ WKH EHVW DQG WR SURYLGH UHDVRQV IRU WKHLU UDWLQJV 7KH FRPSRVLWH UDWLQJ
ZDV D  IRU WKH ,6 SURJUDP DQG D  IRU WKH &06 SURJUDP 'LVFXVVLRQV RI WKH UHDVRQV IRU
WKHVH UDWLQJV SURGXFHG D FRPPRQ WKHPH WKDW WKH ODFN RI SUDFWLFDO H[SHULHQFH SRVVHVVHG E\ WKH


-DQXDU\                                                                             3DJH  RI 
                                  )&$ 2IILFH RI ,QVSHFWRU *HQHUDO
                          $XGLW $ 6SHFLDOL]DWLRQ&HUWLILFDWLRQ 3URJUDPV

$JHQF\¶V VSHFLDOLVWV LQ HDFK VXEMHFW PDWWHU DUHD OLPLWHG WKHLU HIIHFWLYHQHVV &RPPHQWV FHQWHUHG
RQ WKH IDFW WKDW WKH SURJUDPV KDG GHYHORSHG LQGLYLGXDOV ZKR ZHUH WHFKQLFDOO\ SURILFLHQW EXW
ZLWKRXW WKH SHUVSHFWLYH RU SUDFWLFDO XQGHUVWDQGLQJ WKDW FRPHV IURP ³UHDO ZRUOG´ LQYROYHPHQW LQ
DFWXDO RSHUDWLRQV &RPPHQWV RIWHQ LQFOXGHG WKH RSLQLRQ WKDW SURJUDPV KDG EHHQ LPSURYLQJ DV
$JHQF\ SHUVRQQHO JDLQHG H[SHULHQFH LQ H[DPLQDWLRQ RI WKH UHVSHFWLYH DUHDV KRZHYHU WKLV DGGHG
H[DPLQDWLRQ H[SHULHQFH FRXOG QRW IXOO\ VXEVWLWXWH IRU SUDFWLFDO H[SHULHQFH LQ RSHUDWLRQV

7KH $JHQF\¶V ,QIRUPDWLRQ 5HVRXUFHV 'LYLVLRQ ,5' LV DQ RSHUDWLRQDO VHWWLQJ IURP ZKLFK ,6
H[DPLQHUV FRXOG REWDLQ SUDFWLFDO RSHUDWLQJ H[SHULHQFH E\ URWDWLQJ WKHP WKURXJK ,5' 7KLV
SRVVLELOLW\ KDV EHHQ WHQWDWLYHO\ GLVFXVVHG EHWZHHQ WKH 2IILFH RI ([DPLQDWLRQ 2( DQG ,5'
$OVR URWDWLRQV RI ,5' RSHUDWLRQV VWDII WR ,6 H[DPLQDWLRQV ZRXOG SURYLGH DQ RSSRUWXQLW\ IRU MRE
HQULFKPHQW IRU WKRVH LQGLYLGXDOV ZKLOH HQKDQFLQJ WKH SUDFWLFDO RSHUDWLRQV SHUVSHFWLYH IRU ,6
H[DPLQDWLRQV $ SURJUDP WR DXJPHQW WKH SUDFWLFDO NQRZOHGJH EDVH RI WKH &06 SURJUDP LV
QHHGHG DV ZHOO WR DGGUHVV WKH FRQFHUQV HOHYDWHG E\ WKH VXUYH\

5HFRPPHQGDWLRQV

 7KH $JHQF\ VKRXOG SURYLGH RSHUDWLRQV H[SHULHQFH IRU ,6 H[DPLQHUV 7KLV SUDFWLFDO
   H[SHULHQFH FRXOG EH GHYHORSHG WKURXJK D SURJUDP RI URWDWLRQDO DVVLJQPHQWV EHWZHHQ WKH
   $JHQF\¶V ,5' DQG 2(¶V ,QIRUPDWLRQ 6\VWHPV H[DPLQDWLRQ

 7KH $JHQF\ VKRXOG UHVHDUFK DQG GHYHORS D SURJUDP WR REWDLQ SUDFWLFDO RSHUDWLRQV H[SHULHQFH
   IRU LWV &06


:H LGHQWLILHG QLQH FHUWLILFDWLRQVSHFLDOL]DWLRQ SURJUDPV ZLWKLQ WKH $JHQF\

7KHUH ZHUH QLQH FHUWLILFDWLRQVSHFLDOL]DWLRQ SURJUDPV DFWLYH ZLWKLQ WKH $JHQF\ GXULQJ WKH SDVW
WZR \HDUV 7KHVH SURJUDPV GHYHORSHG VWDII EH\RQG WKH JHQHUDO SURIHVVLRQDO VNLOOV DQG
NQRZOHGJH OHYHO ZLWK WKH $JHQF\ LQYHVWLQJ VXEVWDQWLDO WUDLQLQJ IXQGV RYHU  DQG RQWKH
MRE VWXG\WUDLQLQJ RU VSHFLDOL]HG LQKRXVH FODVVHV

$JHQF\ RIILFHV YDU\ LQ WKH PHWKRG RI VHOHFWLQJ LQGLYLGXDOV WR EH GHYHORSHG DV VXEMHFW PDWWHU
H[SHUWV 2( XVHV D FRPSHWLWLYH SURFHVV WR VHOHFW ,6 H[DPLQHUV DQG &06 +RZHYHU RWKHU RIILFHV
UHVSRQG WR UHTXHVWV VXEPLWWHG DV D SDUW RI DQ HPSOR\HH¶V LQGLYLGXDO GHYHORSPHQW SODQ WR DSSURYH
SDUWLFLSDWLRQ LQ FHUWLILFDWLRQVSHFLDOL]DWLRQ SURJUDPV 7KH IROORZLQJ LV D OLVWLQJ RI WKHVH
SURJUDPV WRJHWKHU ZLWK VRPH GHVFULSWLYH LQIRUPDWLRQ DERXW HDFK RQH

&HUWLILHG ,QIRUPDWLRQ 6\VWHPV ([DPLQHU 7KLV LQWHUQDOO\ DGPLQLVWHUHG SURJUDP LQFOXGHV 
$JHQF\ SDUWLFLSDQWV LQ D WKUHH\HDU SURJUDP 7KH $JHQF\ DOORFDWHV  SHU \HDU SHU
SDUWLFLSDQW IRU H[WHUQDO WUDLQLQJ SD\V IRU DQQXDO )HGHUDO )LQDQFLDO ,QVWLWXWLRQV ([DPLQDWLRQ
&RXQFLO VSRQVRUHG FRQIHUHQFHV DQG SURYLGHV IRU  ZHHNV RI VSHFLILFDOO\ GHVLJQDWHG RQWKHMRE
WUDLQLQJ RYHU WKH FRXUVH RI WKH SURJUDP 7KH $JHQF\ SD\V WKH WXLWLRQ IRU WKH &HUWLILHG
,QIRUPDWLRQ 6\VWHPV $XGLWRU 5HYLHZ &RXUVH DQG WKH &HUWLILFDWLRQ ([DPLQDWLRQ LQFOXGLQJ RQH
UHWDNH LI QHFHVVDU\ 7KH $JHQF\ DOVR EHDUV WKH FRVW RI DVVRFLDWHG WUDYHO DQG WKH VDODU\ FRVW IRU
RIILFLDO WLPH XVHG IRU WUDLQLQJGHYHORSPHQW DFWLYLWLHV


-DQXDU\                                                                          3DJH  RI 
                                  )&$ 2IILFH RI ,QVSHFWRU *HQHUDO
                          $XGLW $ 6SHFLDOL]DWLRQ&HUWLILFDWLRQ 3URJUDPV



&DSLWDO 0DUNHWV 6SHFLDOLVW 7KHUH DUH  SDUWLFLSDQWV LQ WKLV LQWHUQDOO\ DGPLQLVWHUHG SURJUDP
ZKLFK WDNHV IURP RQH WR ILYH \HDUV WR FRPSOHWH GHSHQGLQJ RQ WKH SDUWLFLSDQW¶V SULRU NQRZOHGJH
DQG H[SHULHQFH )&$ DOORFDWHV  SHU \HDU SHU SDUWLFLSDQW IRU RXWVLGH WUDLQLQJ SURYLGHV
H[WHQVLYH RQWKHMRE H[DPLQDWLRQ WUDLQLQJ IRUPDO LQKRXVH VSRQVRUHG FRQIHUHQFHV DQG EHDUV WKH
FRVW RI DVVRFLDWHG WUDYHO DQG VDODU\ FRVWV IRU RIILFLDO WLPH XVHG IRU WKHVH WUDLQLQJGHYHORSPHQWDO
DFWLYLWLHV

&KDUWHUHG )LQDQFLDO $QDO\VW 7KLV LV DQ H[WHUQDOO\ DGPLQLVWHUHG WKUHH\HDU SURJUDP LQYROYLQJ
IRXU $JHQF\ SDUWLFLSDQWV (DFK SDUWLFLSDQW LV DOORFDWHG  SHU \HDU IRU RXWVLGH VHOIVWXG\
WUDLQLQJ DQG D UHYLHZ FRXUVH 7KH $JHQF\ EHDUV WKH FRVW RI DVVRFLDWHG WUDYHO DQG LQ VRPH
LQVWDQFHV SURYLGHV RIILFLDO WLPH IRU WKH UHYLHZ FRXUVH

6HQLRU ([HFXWLYH 6HUYLFH &DQGLGDWH 'HYHORSPHQW 3URJUDP 7KLV LV DQ H[WHUQDOO\ DGPLQLVWHUHG
SURJUDP ZLWK RQH $JHQF\ SDUWLFLSDQW 7KHUH DUH  LQ WUDLQLQJ FRVWV DV ZHOO DV WUDYHO FRVWV
ERUQH E\ WKH $JHQF\

&HUWLILHG 3XEOLF $FFRXQWDQW 7KLV LV DQ H[WHUQDOO\ DGPLQLVWHUHG SURJUDP ZLWK WZR $JHQF\
SDUWLFLSDQWV 7KHUH LV D UHYLHZ FRXUVH FRVW RI  SHU SDUWLFLSDQW

0LFURVRIW 6XEMHFW 0DWWHU ([SHUW 7KLV LV DQ H[WHUQDOO\ DGPLQLVWHUHG SURJUDP ZLWK ILYH $JHQF\
SDUWLFLSDQWV &RVWV LQFXUUHG LQFOXGH   IRU WXLWLRQ SHU SDUWLFLSDQW DV ZHOO DV
DFFRPSDQ\LQJ WUDYHO DQG VDODU\

0LFURVRIW 1HWZRUN 6XEMHFW 0DWWHU ([SHUW 7KLV LV DQ H[WHUQDOO\ DGPLQLVWHUHG SURJUDP ZLWK WZR
$JHQF\ SDUWLFLSDQWV &RVWV LQFXUUHG LQFOXGH   IRU WXLWLRQ SHU SDUWLFLSDQW DV ZHOO DV
DFFRPSDQ\LQJ WUDYHO DQG VDODU\

3RZHUEXLOGHU 'HYHORSHU 6XEMHFW 0DWWHU ([SHUW 7KLV LV DQ H[WHUQDOO\ DGPLQLVWHUHG SURJUDP ZLWK
WZR $JHQF\ SDUWLFLSDQWV 7KH SDUWLFLSDQWV XVH WKHVH VNLOOV WR LPSURYH WKH $JHQF\ XWLOL]DWLRQ RI
3RZHUEXLOGHU FRPSXWHU VRIWZDUH &RVWV LQFXUUHG LQFOXGH  IRU WXLWLRQ SHU SDUWLFLSDQW DV
ZHOO DV DFFRPSDQ\LQJ WUDYHO DQG VDODU\

/RWXV 1RWHV 'HYHORSHU 6XEMHFW 0DWWHU ([SHUW 7KLV LV DQ H[WHUQDOO\ DGPLQLVWHUHG SURJUDP ZLWK
WKUHH $JHQF\ SDUWLFLSDQWV &RVWV LQFXUUHG LQFOXGH   IRU WXLWLRQ SHU SDUWLFLSDQW DV
ZHOO DV DFFRPSDQ\LQJ WUDYHO DQG VDODU\


7KH $JHQF\ LV GHYHORSLQJ D FRPSUHKHQVLYH VNLOOV LQYHQWRU\ ZKLFK VKRXOG SURYLGH WKH UDWLRQDOH
DQG FULWHULD IRU VWDII GHYHORSPHQW GHFLVLRQV


7KH $JHQF\ KDV PLQLPDO SURFHGXUHV WR VHFXUH LQYHVWPHQW LQ WKHVH SURJUDPV

)&$ KDV H[SHULHQFHG PLQLPDO ORVV RI VXEMHFW PDWWHU H[SHUWV 1HYHUWKHOHVV WKH $JHQF\ FXUUHQWO\
KDV GRQH OLWWOH WR DVVXUH WKDW WKHVH VXEMHFW PDWWHU H[SHUWV DUH UHWDLQHG WR VHUYH WKH LGHQWLILHG


-DQXDU\                                                                           3DJH  RI 
                                  )&$ 2IILFH RI ,QVSHFWRU *HQHUDO
                          $XGLW $ 6SHFLDOL]DWLRQ&HUWLILFDWLRQ 3URJUDPV

$JHQF\ QHHGV 7KLV FRQFHUQ OHYHO LV KHLJKWHQHG DV VXEMHFW PDWWHU H[SHUWLVH LV EHFRPLQJ PRUH
KLJKO\ YDOXHG LQ WKH FXUUHQW HPSOR\PHQW PDUNHWSODFH 7KH $JHQF\ GRHV KDYH D VHUYLFH UHWHQWLRQ
SROLF\ IRU SDUWLFLSDQWV WKDW DWWHQG QRQJRYHUQPHQW WUDLQLQJ LQ H[FHVV RI  KRXUV ,WV PDLQ
SURWHFWLYH HOHPHQWV DUH DV IROORZV

   8SRQ FRPSOHWLRQ RI WKH *RYHUQPHQWVSRQVRUHG WUDLQLQJ LI VDODU\ ZDV UHFHLYHG GXULQJ WKH
    WUDLQLQJ SHULRG HDFK LQGLYLGXDO LV REOLJDWHG IRU FRQWLQXHG VHUYLFH WR WKH $JHQF\ IRU WKUHH
    WLPHV WKH OHQJWK RI WKH WUDLQLQJ SHULRG

   ,QGLYLGXDOV ZKR DUH QRW SURYLGHG RIILFLDO WLPH IRU WKHLU WUDLQLQJ DUH REOLJDWHG WR WKH $JHQF\
    IRU D SHULRG HTXDO WR WKH OHQJWK RI WKH WUDLQLQJ EXW LQ QR FDVH OHVV WKDQ RQH PRQWK

   9ROXQWDU\ GHSDUWXUH IURP WKH $JHQF\ EHIRUH WKHVH UHVSHFWLYH SHULRGV UHVXOWV LQ
    UHLPEXUVHPHQW WR WKH $JHQF\ IRU WXLWLRQ DQG UHODWHG IHHV WUDYHO DQG RWKHU VSHFLDO H[SHQVHV
    H[FOXGLQJ VDODU\ SDLG LQ FRQQHFWLRQ ZLWK WKH WUDLQLQJ

7KH EXOOHWHG LQIRUPDWLRQ DERYH RIIHUV D PLQLPDO VDIHJXDUG IURP HPSOR\HHV VHOOLQJ WKHLU
$JHQF\GHYHORSHG VNLOOV WR RWKHU HPSOR\HUV         %\ FRPSDULVRQ SULYDWH LQGXVWU\ RIWHQ
FRQWUDFWXDOO\ UHTXLUHV WKDW HPSOR\HHV UHLPEXUVH WKH FRPSDQ\ IRU HGXFDWLRQDOWUDLQLQJ ILQDQFHG
E\ WKH FRPSDQ\ XQOHVV WKH\ UHPDLQ ZLWK WKH FRPSDQ\ IRU D \HDU RU PRUH

2QH DOWHUQDWLYH WR GHYHORSLQJ LQKRXVH VXEMHFW PDWWHU H[SHUWV ZRXOG EH WR FRQWUDFW ZLWK RXWVLGH
VXEMHFW PDWWHU H[SHUWV WR SHUIRUP WKHVH WDVNV +RZHYHU DQ DQDO\VLV RI DOWHUQDWLYHV KDV QRW EHHQ
PDGH $ FRVW EHQHILW DQDO\VLV ZRXOG EH YDOXDEOH WR HLWKHU FRQILUP SUHVHQW SUDFWLFHV RU LGHQWLI\
SRWHQWLDOO\ OHVV H[SHQVLYH RU PRUH HIIHFWLYH DOWHUQDWLYHV 8VLQJ RXWVLGH VRXUFHV ZRXOG DGGUHVV
WKH OLPLWHG SURWHFWLRQ SURYLGHG E\ WKH FXUUHQW $JHQF\ SROLF\ UHJDUGLQJ VHUYLFH UHWHQWLRQ RI
SURJUDP SDUWLFLSDQWV DV ZHOO DV WKH WHSLG QDWXUH RI WKH 6\VWHP¶V FRPPHQWV UHODWLYH WR WKH
$JHQF\¶V VXEMHFW PDWWHU VSHFLDOLVWV LQ WKH &06 DQG ,6 SURJUDPV

5HFRPPHQGDWLRQV

 7KH $JHQF\ VKRXOG UHYLVH LWV SROLF\ WR HVWDEOLVK UHDVRQDEOH VHUYLFH UHTXLUHPHQWV IRU
   LQGLYLGXDOV SDUWLFLSDWLQJ LQ FRVWO\ VXEMHFW PDWWHU VSHFLDOLVW GHYHORSPHQW SURJUDPV WR HQVXUH
   WKH $JHQF\ UHWDLQV DGHTXDWH VNLOOV DYDLODEOH WR PHHW LWV QHHGV

 7KH $JHQF\ VKRXOG SHUIRUP D IRUPDO DQDO\VLV WR SURYLGH DGHTXDWH VXSSRUW IRU LWV GHFLVLRQ WR
   LQYHVW LQ GHYHORSLQJ LQKRXVH VXEMHFW PDWWHU H[SHUWV YHUVXV FRQWUDFWLQJ IRU VXFK H[SHUWLVH


7KH $JHQF\¶V WUDLQLQJ GDWDEDVH PDLQWDLQHG E\ WKH +XPDQ DQG $GPLQLVWUDWLYH 5HVRXUFHV
'LYLVLRQ RQ 2UDFOH LV LQFRPSOHWH DQG LQDFFXUDWH

7KH $JHQF\¶V GDWDEDVH IRU WUDFNLQJ WUDLQLQJ FRXUVHV DQG FRVWV LV QRW FRPSOHWH :H DOVR IRXQG
QXPHURXV LQSXW HUURUV UHJDUGLQJ WUDLQLQJ FRXUVHV DQG GDWD UHJDUGLQJ WUDYHO FRVWV UHODWHG WR
WUDLQLQJ +XPDQ DQG $GPLQLVWUDWLYH 5HVRXUFHV 'LYLVLRQ SHUVRQQHO LQGLFDWHG WKDW WKH GDWD IRU
WUDLQLQJ FRVWV ZHUH RQO\ HQWHUHG LQWR WKH GDWDEDVH ZKHQ WKDW GDWD ZDV VXSSOLHG E\ WKH $JHQF\


-DQXDU\                                                                          3DJH  RI 
                                  )&$ 2IILFH RI ,QVSHFWRU *HQHUDO
                          $XGLW $ 6SHFLDOL]DWLRQ&HUWLILFDWLRQ 3URJUDPV

SHUVRQQHO LQYROYHG LQ WKH WUDLQLQJ DFWLYLWLHV ,Q PDQ\ LQVWDQFHV WKLV LQIRUPDWLRQ ZDV QRW
VXSSOLHG :H IRXQG LQDFFXUDFLHV LQ WKH GDWDEDVH LQFOXGLQJ GXSOLFDWH HQWULHV IRU WUDLQLQJ FRXUVHV
IRU VHYHUDO LQGLYLGXDOV WUDLQLQJ FRXUVH FRVWV HQWHUHG LQ WKH WUDYHO FRVW VHFWLRQ RI WKH GDWDEDVH
ZLWKRXW FRUUHVSRQGLQJ WUDLQLQJ FRXUVH FRVWV HQWHUHG DQG WUDLQLQJ UHFRUGV WKDW GLG QRW LQFOXGH DOO
WUDLQLQJ WDNHQ

7KH WUDLQLQJ GDWDEDVH LQ LWV FXUUHQW VWDWH LV XQUHOLDEOH DQG LWV XVH FRXOG FRQWULEXWH WR IODZHG
PDQDJHPHQW GHFLVLRQV $ FRPSOHWH DQG DFFXUDWH GDWDEDVH ZRXOG EH XVHIXO WR $JHQF\
PDQDJHPHQW IRU D QXPEHU RI HPSOR\HH WUDLQLQJ DQG VWDIILQJ SXUSRVHV

5HFRPPHQGDWLRQ

 7KH $JHQF\¶V WUDLQLQJ GDWDEDVH VKRXOG EH PDLQWDLQHG LQ D UHOLDEOH DQG FRPSOHWH PDQQHU RU
   HOLPLQDWHG




-DQXDU\                                                                           3DJH  RI 
0$1$*(0(17 5(63216(
0HPRUDQGXP

                                                                   )DUP &UHGLW $GPLQLVWUDWLRQ
                                                                       )DUP &UHGLW 'ULYH
                                                                 0F/HDQ 9LUJLQLD 


'HFHPEHU  


7R        (OGRQ : 6WRHKU
           ,QVSHFWRU *HQHUDO

)URP      'RQDOG 3 &ODUN 'LUHFWRU
           2IILFH RI 5HVRXUFHV 0DQDJHPHQW

6XEMHFW   0DQDJHPHQW
V 5HVSRQVH WR $XGLW 
           6SHFLDOL]DWLRQ&HUWLILFDWLRQ 3URJUDPV


:H WKDQN \RX IRU WKH H[LW FRQIHUHQFH WR DGGUHVV WKH UHFRPPHQGDWLRQV LQ WKH UHSRUW 7KLV
UHVSRQVH UHIOHFWV WKH VXEVWDQWLDO DJUHHPHQW DQG SURSRVHG DFWLRQV ZH GLVFXVVHG WR HQVXUH SUXGHQW
LQYHVWPHQW RI UHVRXUFHV WR GHYHORS DQG UHWDLQ HVVHQWLDO HPSOR\HH VNLOOV ZLWKLQ )&$
0DQDJHPHQW EHOLHYHV WKDW LQYHVWPHQW LQ KXPDQ FDSLWDO DQG VNLOOV RI RXU VWDII DUH D NH\ VWUDWHJ\
WR HQVXUH WKDW )&$ DV WKH SUHPLHU UHJXODWRU KDV WKH EHVW SHRSOH EHVW SUDFWLFHV DQG EHVW
SURGXFWV

5HFRPPHQGDWLRQ  7KH $JHQF\ VKRXOG SURYLGH RSHUDWLRQV H[SHULHQFH IRU ,6 H[DPLQHUV
7KLV SUDFWLFDO H[SHULHQFH FRXOG EH GHYHORSHG WKURXJK D SURJUDP RI URWDWLRQDO DVVLJQPHQWV
EHWZHHQ WKH $JHQF\
V ,5' DQG 2IILFH RI ([DPLQDWLRQ
V 2( ,QIRUPDWLRQ 6\VWHPV
H[DPLQDWLRQ

5HVSRQVH $JUHH $VVLJQHG WR 2( 7RP +ROODQG DFWLRQ SODQ GXH )HEUXDU\  

3UDFWLFDO H[SHULHQFH RSSRUWXQLWLHV DUH XQGHU FRQVLGHUDWLRQ IRU ,6 H[DPLQHUV DQG ZLOO EH
LQFRUSRUDWHG LQWR WKH ,6 SURJUDP 7KH 2IILFH RI ([DPLQDWLRQ ZLOO GHYHORS D OLVW RI SURYLGHUV
REMHFWLYHV DQG WLPH KRUL]RQV IRU GHYHORSLQJ RSHUDWLRQV H[SHULHQFH DQG LQGXVWU\ QHWZRUNV RQ
WHFKQLFDO PDWWHUV 7R WKH H[WHQW SRVVLEOH ZH ZLOO DOVR GR WKH QHFHVVDU\ FRVWEHQHILW DQDO\VLV
ZKHQ HYDOXDWLQJ DQ\ RSSRUWXQLWLHV

5HFRPPHQGDWLRQ  7KH $JHQF\ VKRXOG UHVHDUFK DQG GHYHORS D SURJUDP WR REWDLQ
SUDFWLFDO RSHUDWLRQV H[SHULHQFH IRU LWV &06V

5HVSRQVH $JUHH $VVLJQHG WR 2( 7RP +ROODQG DFWLRQ SODQ GXH )HEUXDU\  
2( ZLOO UHVHDUFK SUDFWLFDO H[SHULHQFH RSSRUWXQLWLHV IRU &06 H[DPLQHUV DQG LQFRUSRUDWH LQWR WKH
&06 &HUWLILFDWLRQ 3URJUDP 7KH 2IILFH RI ([DPLQDWLRQ ZLOO GHYHORS D OLVW RI SURYLGHUV
REMHFWLYHV DQG WLPH KRUL]RQV IRU GHYHORSLQJ RSHUDWLRQV H[SHULHQFH DQG LQGXVWU\ QHWZRUNV RQ
FDSLWDO PDUNHW PDWWHUV 7R WKH H[WHQW SRVVLEOH ZH ZLOO DOVR GR WKH QHFHVVDU\ FRVWEHQHILW DQDO\VLV
ZKHQ HYDOXDWLQJ DQ\ RSSRUWXQLWLHV

5HFRPPHQGDWLRQ  7KH $JHQF\ VKRXOG UHYLVH LWV SROLF\ WR HVWDEOLVK UHDVRQDEOH VHUYLFH
UHTXLUHPHQWV IRU LQGLYLGXDOV SDUWLFLSDWLQJ LQ FRVWO\ VXEMHFW PDWWHU VSHFLDOLVW GHYHORSPHQW
SURJUDPV WR HQVXUH WKH $JHQF\ UHWDLQV DGHTXDWH VNLOOV DYDLODEOH WR PHHW LWV QHHGV

5HVSRQVH $JUHH $VVLJQHG WR 250 3KLO 6KHEHVW 330 UHYLVLRQ GXH )HEUXDU\  

2QH LQGXVWU\ EHQFKPDUN IRU NHHSLQJ HPSOR\HHV
 VNLOOV FXUUHQW LQ WRGD\
V UDSLG FKDQJH
HQYLURQPHQW LV  DYHUDJH SHU HPSOR\HH )&$ PDQDJHPHQW LV FRQVLGHULQJ UHWHQWLRQ DQG
UHLPEXUVHPHQW JXLGHOLQHV IRU DQQXDO WXLWLRQ H[SHQGLWXUHV DERYH  SHU HPSOR\HH

5HFRPPHQGDWLRQ  7KH $JHQF\ VKRXOG SHUIRUP D IRUPDO DQDO\VLV WR SURYLGH DGHTXDWH
VXSSRUW IRU LWV GHFLVLRQ WR LQYHVW LQ GHYHORSLQJ LQKRXVH VXEMHFW PDWWHU H[SHUWV YHUVXV
FRQWUDFWLQJ IRU VXFK H[SHUWLVH

5HVSRQVH $JUHH $VVLJQHG WR 250 +$5' 3KLO 6KHEHVW 330 UHYLVLRQ GXH )HEUXDU\  

*RRG EXVLQHVV SUDFWLFHV GLFWDWH XVLQJ UHVRXUFHV ZLVHO\ DQG HQVXULQJ UHWXUQ RQ LQYHVWPHQW LQ
VXEMHFW PDWWHU H[SHUWLVH :H EHOLHYH D UHDVRQDEOH WKUHVKROG IRU D IRUPDO FRVWEHQHILW DQDO\VLV LV D
WRWDO LQYHVWPHQW JUHDWHU WKDQ  IRU D VSHFLILF VHW RI KLJK FRVW H[SHUWLVH RU VNLOOV

5HFRPPHQGDWLRQ  7KH $JHQF\
V WUDLQLQJ GDWDEDVH VKRXOG EH PDLQWDLQHG LQ D UHOLDEOH
DQG FRPSOHWH PDQQHU RU HOLPLQDWHG

5HVSRQVH $JUHH $VVLJQHG WR 250 +$5' 3KLO 6KHEHVW DFWLRQ SODQ GXH 0DUFK  

:H DJUHH WKDW DQ DFFXUDWH WUDLQLQJ GDWDEDVH ZRXOG EH D YDOXDEOH WRRO IRU PDQDJHPHQW $ VWXG\
ZLOO EH SHUIRUPHG WR GHWHUPLQH FRPPRQ UHTXLUHPHQWV DQG FRQWUROV WR LPSURYH UHOLDELOLW\ 7KH
DSSURYHG GHVLJQ ZLOO EH IRUZDUGHG WR WKH ,QIRUPDWLRQ 5HVRXUFHV 0DQDJHPHQW ,50 2SHUDWLRQV
&RPPLWWHH IRU LQFOXVLRQ LQ WKH $JHQF\ ,50 3ODQ

&RS\ WR -DPHV 5 5LWWHU
         $XGLW )ROORZXS 2IILFLDO
                                              2,* 5(3257
                                     86(5 5(63216( 48(67,211$,5(

5HSRUW 7LWOH )&$¶V 6SHFLDOL]DWLRQ&HUWLILFDWLRQ 3URJUDPV                         1XPEHU $

5HVSRQGHQW¶V 1DPH                                                                7HOHSKRQH

5HVSRQGHQW¶V 2IILFH                                                              7RGD\¶V 'DWH


                                                                                     6WURQJO\                     6WURQJO\
                                                                                      $JUHH                       'LVDJUHH
4XDOLW\ RI WKH :RUN DQG 5HSRUW                                                       &LUFOH WKH QXPEHU WKDW EHVW GHVFULEHV
                                                                                     \RXU UHVSRQVH WR WKH TXHVWLRQ
 7KH UHSRUW FOHDUO\ LQGLFDWHV ZKDW DUHDV ZHUH UHYLHZHG                                                          
 7KH UHSRUW ZDV FOHDU ORJLFDO DQG XQGHUVWDQGDEOH                                                               
 7KH UHFRPPHQGDWLRQV LI DQ\ ZHUH DSSURSULDWH WR WKH FRQGLWLRQV DQG DUH                                         
   DFKLHYDEOH
 7KH 2,* VWDII ZULWLQJ WKLV UHSRUW ZHUH SURIHVVLRQDO NQRZOHGJHDEOH DQG                                          
   REMHFWLYH
5HOHYDQFH WR <RXU :RUN
 7KH UHSRUW ZDV WLPHO\ IRU \RXU SXUSRVHV                                                                        
 7KH DUHDV DGGUHVVHG LQ WKH UHSRUW ZHUH RI FRQFHUQ WR \RXU RIILFH                                               
 <RXU FRPPHQWV LI DQ\ ZHUH IDLUO\ VWDWHG DQG DGHTXDWHO\ DGGUHVVHG                                             
3OHDVH DGG DQ\ H[SODQDWRU\ FRPPHQWV KHUH SDUWLFXODUO\ IRU WKRVH UDWHG  RU  8VH DQ DGGLWLRQDO VKHHW LI QHFHVVDU\




3OHDVH UHWXUQ WKLV IRUP WR
                                           )&$ 2IILFH RI ,QVSHFWRU *HQHUDO
                                               )DUP &UHGLW 'ULYH
                                               0F/HDQ 9$ 

,I \RX ZRXOG OLNH WR GLVFXVV \RXU UHVSRQVHV ZLWK WKH ,QVSHFWRU *HQHUDO FKHFN WKH ER[ DQG
%H VXUH WR LQFOXGH \RXU WHOHSKRQH QXPEHU DW WKH WRS RI WKLV IRUP RU FDOO XV RQ 
